COMMONWEALTH of VIRGINIA
Office of the Attorney General
Mark R. Herring
Attorney General

202 North Ninth Street
Richmond, Virginia 23219
804-786-7240
FAX 804-371-0200
theytens@oag.state.va.us

June 3, 2020
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543
Re:

Tolle v. Northam, No. 19-1283

Dear Mr. Harris:
On May 1, 2020, the petition for a writ of certiorari in the above-referenced
case was filed. On May 27, 2020, the Court requested that a response be filed by
June 26, 2020.
On account of our current workload, we respectfully request a thirty-day
extension of time, until July 27, 2020, to file the response brief.
We thank the Court for its consideration.
Very truly yours,

Toby J. Heytens
Solicitor General of Virginia
Counsel of Record for Respondents
cc:

James Tolle, pro se
jtmail0000@yahoo.com

